"Review of Medicaid Payment Amounts for Oxygen Related Durable Medical Equipment and Supplies - Wisconsin Department of Health and Family Services, Madison, Wisconsin, A-05-01-00031"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Payment Amounts for Oxygen Related Durable Medical
Equipment and Supplies, Wisconsin Department of Health and Family Services,
Madison, Wisconsin," (A-05-01-00031)
October 18, 2001
Complete
Text of Report is available in PDF format (280kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report presents
the results of our Review of Medicaid Payment Amounts for Oxygen Related Durable
Medical Equipment and Supplies.  We
determined that providers received reimbursements for these items of durable
medical equipment (DME) and supplies at rates that were higher than the Medicare
allowable amount.  Based on our review of payments for Medicaid
DME and supply claims with dates of service during the period October 1, 1997
through June 30, 2000, savings of approximately $685,500 could have been realized
if the Medicaid rates had been limited to amounts allowable under the Medicare
program. This annual savings of approximately $250,000 would result in a cost
savings of approximately $1,250,000 over a five-year budget cycle.
The higher reimbursements occurred because the State agency set the reimbursement
limits for these items above the dollar amount allowed for similar items under
the Medicare program.  We are recommending that the State limit
the maximum allowable price for DME and supplies to an amount equal to or less
than the Medicare allowable amount for the same items.